NO. 20-74
In the

Supreme Court of the United States
UNITED STATES,
Petitioner,
V.

IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 26th day of August, 2020, copies of the Brief for Respondent Comcast
Cable Communications, LLC were served, by USPS first class mail or by electronic
mail with the consent of the parties, upon counsel for the parties (Rovi Guides, Inc.;
Promptu Systems Corp.; and the United States) to the proceedings to which the brief
relates, listed below. Courtesy copies have been provided via electronic mail to all
other parties.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Jacob Adam Schroeder
Finnegan, Henderson, Farabow, Garrett
& Dunner, LLP
3300 Hillview Avenue
Palo Alto, CA 94304
650-849-6765
jacob.schroeder@finnegan.com

Jason Daniel Eisenberg
Sterne Kessler Goldstein & Fox, PLLC
1100 New York Avenue NW
Suite 600
Washington, DC 20005
202-371-2600
jasone@sternekessler.com

Respectfully submitted,

Arn Jacobsen

